HHS/OIG, Audit -"Review of Controls to Report Wage Data at Sarasota Memorial Hospital
for the Period of October 1, 2002, Through September 30, 2003,"(A-04-05-02001)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Controls to Report Wage Data at Sarasota Memorial Hospital
for the Period of October 1, 2002, Through September 30, 2003," (A-04-05-02001)
May 23, 2006
Complete
Text of Report is available in PDF format (453 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Sarasota Memorial Hospital (the hospital)
complied with Medicare requirements for reporting wage data in its fiscal year (FY) 2003
Medicare cost report.  The hospital did not fully comply with Medicare requirements
for reporting wage data in its FY 2003 Medicare cost report.  The hospital understated
its wage data by $2,926,445 and 175,695 hours.
We recommended that the hospital (1) submit a revised FY 2003 Medicare cost report to the
fiscal intermediary to correct the understatements in the wage data totaling $2,926,445 and
175,695 hours and (2) implement review and reconciliation procedures to ensure that the wage
data reported on future Medicare cost reports are accurate, supportable, and in compliance
with Medicare requirements.  The hospital agreed with the findings and recommendations.